CCCOR

Visa Platinum Low-Rate
Credit Card Disclosures

FEDERAL CREDIT UNION

Effective April 2, 2020

Interest Rates and Interest Charges
Annual Percentage
Rate (APR) for
Purchases

0.00% introductory rate for the first 12 billing cycles after a new account is opened.
On the first day after 12 billing cycles from account opening, your APR will revert to your
approved rate, which will vary with the market based on the Wall Street Journal prime rate.
Rates range from 7.99%-18.00%* based on credit worthiness and prime rate.

APR for Balance
Transfers

1.99% introductory rate on balance transfers for the first 12 billing cycles after a new
account is opened.
On the first day after 12 billing cycles from account opening, your APR will revert to your
approved rate, which will vary with the market based on the Wall Street Journal prime rate.

Rates range from 7.99%-18.00%* based on credit worthiness and prime rate.
APR for Cash Advances

The APR for cash advances is 7.99%-18.00%*
This APR will vary with the market based on the Wall Street Journal prime rate and is
based on credit worthiness at the time of account opening.

Penalty APR and When
It Applies

The penalty APR is 18.00%. This APR may be applied to your account if you:
(1) Make a Late Payment
(2) Go Over Your Credit Limit
(3) Make a Payment that is Returned; or
(4) Do any of the above on Another Account You have with Us.
How Long will the Penalty APR Apply? If your APRs are increased for any of these
reasons, the Penalty APR will apply until you make 6 consecutive minimum payments
when due; and you do not again default on these conditions during this time.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases or cash advances if you pay your entire balance by the due
date each month. We will begin charging interest on cash advances and balance transfers
on the transaction date.

Minimum Interest
Payment

If you are charged interest, the charge will be no less than $0.01.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at:
http://consumerfinance.gov/learnmore.

SEE PAGE TWO FOR MORE IMPORTANT INFORMATION ABOUT YOUR ACCOUNT

SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

00029
Rev. 04.02.2020
Page 1 of 12

CCCOR

Fees
Annual Fee

None

Transaction Fees

Balance Transfer Fee: 2% of each advance with $10.00 minimum
Express Card Fee: $25.00
Receipt Copy: $2.00 per receipt
Lost or Stolen Card Replacement: $15.00
Statements: $2.00 per statement
Cash Advance Fee: 2% of each advance with $10.00 minimum
Foreign Transaction Fee: 1% of each international transaction in US Dollars
Research Fee: $10.00 per hour (2-hour minimum)
Pay by Phone: $5.00

Penalty Fees

Late Payment Fee: up to $38.00 applied on any portion past due 3 days after due date
Over-the-Credit Limit Fee: $0.00
Returned Payment Fee: $25.00

*APR applicable to your account is determined by your credit worthiness based on your Equifax Beacon Score at the time
of application. Variable Rate Feature: The Visa credit cards have a variable rate feature, meaning that the APR
(corresponding to the periodic rate) and the term of your Visa loan may change due to interest rate fluctuations. The APR
includes only interest and no other costs. Changes in prime rate will cause changes in the APR as of the first day of your
account's billing cycle following an index change. In no case shall any APR be less than 7.99% or higher than 18.00%
regardless of the applicable index and margin, unless specifically applicable laws and/or regulations require we use a lower
APR.
Monthly
Periodic
Rate
0.6658%
1.50%*
0.00%

Annual
Percentage
Rate*
7.99%
18.00%*
0.00%1

Minimum Payment

Monthly
Periodic Rate

Tier

Annual
Minimum
Percentage
Payment
Rate*
2.0% of balance or
Shaded boxes represent promotional rates for the first 12
$25 minimum
months of newly opened accounts
2.0% of balance or
0.005452%
1.99%2
2.0% of balance
$25 minimum
or $25 minimum
1
Introductory rate offered on purchases for the first 12 billing cycles a new account is open.
2
Introductory rate offered on balance transfers for the first 12 billing cycles a new account is open.
1&2
Beginning on the first day of the 12 billing cycles after the account has been open, purchases and cash advances will
be subject to the approved interest rate and any changes based on Wall Street Journal prime disclosed at account opening.
How we will calculate Your Balance: We will use a method called “average daily balance (including new purchases”).
See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement.
Security Interest: The credit union will acquire a security interest in the property purchased with your credit card;
and collateral securing other loans with us may also secure this account. Also, you are giving us a security interest
in all individual and joint share and/or deposits accounts you have with us now or in the future.
The information about the costs of the card described in this application is accurate as of April 2, 2020. This
information may have changed after that date. To find out what may have changed, call 800-763-8600 or 803-4698600, visit SAFEFED.ORG, or write SAFE Federal Credit Union, P. O. Box 2008, Sumter, SC 29151-2008.
SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

00029
Rev. 04.02.2020
Page 2 of 12

Please keep this Addendum as it is incorporated into and becomes a part of your LOANLINER® Open-End Plan.

CCCOR

CREDIT CARD AGREEMENT AND DISCLOSURES
Visa® Platinum Low-Rate
THIS IS YOUR AGREEMENT AND DISCLOSURE
STATEMENT WITH SAFE FEDERAL CREDIT UNION.
PLEASE READ IT CAREFULLY AND KEEP IT FOR
YOUR RECORDS. IT SUPERSEDES ALL PRIOR
AGREEMENTS AND DISCLOSURE STATEMENTS
RELATING TO YOUR ACCOUNT. YOU DO NOT HAVE
TO SIGN THIS AGREEMENT. YOUR AGREEMENT TO
ALL OF THESE PROVISIONS, AS AMENDED FROM
TIME TO TIME INCLUDING THE CARD ISSUED BY US,
WILL BE SHOWN BY YOUR APPLICATION FOR THE
CARD, YOUR ACCEPTANCE OF THE CARD, OR
YOUR USE OF THE CARD, WHICHEVER OCCURS
FIRST.
THIS AGREEMENT IS SUBJECT TO BINDING
MANDATORY ARBITRATION AS SET FORTH IN
YOUR MEMBERSHIP ACCOUNT AGREEMENT
AND
DISCLOSURES.
THIS
ARBITRATION
PROVISION SUBSTANTIALLY LIMITS YOUR
RIGHT TO BRING A LEGAL ACTION IN A JUDICIAL
FORUM (EXCEPT FOR MATTERS THAT MAY BE
BROUGHT IN SMALL CLAIMS COURT AS SET
FORTH IN THIS AGREEMENT. SEE YOUR
MEMBERSHIP
AGREEMENT
WHICH
IS
INCORPORATED HEREIN BY REFERENCE FOR
COMPLETE DETAILS.
1. DEFINITIONS USED TO UNDERSTAND YOUR
AGREEMENT WITH US
In this Agreement, the word "Card" means either one or
more Visa credit cards and any duplicates, renewals or
substitutions we issue. The words, "you," "your," and
"yours" mean all cardholders (borrowers and coborrowers); anyone any cardholder permits to use the
Card(s); as well as any authorized user for whom an
additional Card(s) is issued to the extent of their
purchases and cash advances, as well as transactions by
anyone they permit to use the Card(s). The word
"cardholder" means any applicant or co-applicant to
whom a Card is issued by us. The words "Credit Union,"
"we," "us," and "our" mean SAFE Federal Credit Union.
The words "Convenience Checks" mean one or more
checks that we may send to you to access your Credit
Card Account. “Applicable Law” shall include: “(i) Visa
U.S.A. Inc. Bylaws, Visa U.S.A. Inc. Operating
Regulations, Visa U.S.A. Inc. Certificate of Incorporation,
Visa International Bylaws, and Visa International
Operating Regulations; and (ii) any and all laws, treaties,
rules, regulations, or regulatory guidance of the
government of the United States, any state thereof, or of
SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

any applicable foreign government or state thereof, as the
same may be amended and in effect from time to time.
2. YOUR PLEDGE OF SHARES AND SECURITY
INTEREST FOR YOUR LOAN ADVANCES
BY SIGNING AN APPLICATION, ACCEPTANCE
OR AUTHORIZED USE OF ANY CREDIT CARDS,
YOU GRANT AND PLEDGE A CONSENSUAL LIEN
TO US ON ALL SHARES TO SECURE PAYMENT
OF YOUR OBLIGATIONS ON THIS ACCOUNT. IN
ADDITION,
YOU
ACKNOWLEDGE
OUR
STATUTORY LIEN RIGHTS UNDER THE
FEDERAL CREDIT UNION ACT; YOU AGREE
THAT SUCH A LIEN IS IMPRESSED AS OF THE
DATE THAT THIS ACCOUNT IS OPENED; AND
YOU AGREE THAT WE CAN APPLY THE SHARES
PLEDGED AT THE TIME OF ANY DEFAULT ON
THIS ACCOUNT WITHOUT FURTHER NOTICE.
“Shares” for the purpose of your pledge to secure
your obligations to the Credit Union means all
deposits in any share savings, share draft, club,
certificate, P.O.D., revocable trust or custodial
account(s), whether jointly or individually held -regardless of contributions, that you have on
deposit now or in the future. Your pledge does not
include any I.R.A., Keogh, tax escrow, irrevocable
trust or fiduciary account in which you do not
have a vested ownership interest.
MILITARY LENDING ACT PARTIAL EXCEPTION: If
you or your dependents are expressly covered
and entitled to the protections provided by the
Military Lending Act then NO PLEDGE OF
SHARES OR LIEN ON SHARES APPLIES EXCEPT
FOR A SHARED SECURED CREDIT CARD FOR
WHICH YOU EXECUTE A SEPARATE SECURITY
AGREEMENT. Any provisions of the Agreement
(below) that address the items expressly excepted
in any section to the contrary also do not apply to
such Loans.
Security Agreement – Non-Purchase Money Security
Interests: Payments on your Account are secured by any
security interest in any property securing your other
obligations to the Credit Union, whether existing now or in
the future, except your household goods and your primary
residence.
Security Agreement – Purchase Money Security
Interests: You hereby grant Credit Union security
00029
Rev. 04.02.2020
Page 3 of 12

interest in all property purchased/acquired by you or any
authorized user pursuant to the use of this Account,
including a purchase-money security interest in any
household goods purchased/acquired with an extension
of credit upon this Account. These Purchase-Money
Security Interests shall secure faithful performance of all
obligations arising under this Agreement; and the Credit
Union shall have all of the rights of a secured party in
accordance with Article Nine of the Uniform Commercial
Code and/or other applicable law.
3. HOW TO USE THIS ACCOUNT
You must sign the Card in order to use it. You can
purchase or lease goods and services ("Purchases") from
any merchant who honors your Card up to your maximum
credit limit by presenting your Card and signing a sales
slip or writing a Convenience Check for the amount of the
Purchase. You may also use the Card to obtain cash
loans ("Cash Advances") up to your maximum credit limit
from financial institutions that accept the Visa credit card,
and by use of preprinted Convenience Checks that the
Credit Union may issue to you. You agree not to present
your Card, obtain a Cash Advance or write a Convenience
Check for any extension of credit in excess of your
available Credit Limit (the difference between your
outstanding balance and your maximum credit limit) on
your account. Cash advance, convenience checks,
and balance transfers may not be used to pay off any
debt owed to SAFE Federal Credit Union. Certain
purchases and cash advances require authorization prior
to completion of the transaction. In some cases, you may
be asked to provide identification. If our system is not
working, we may not be able to authorize a transaction,
even though you have sufficient credit available. Also, for
security reasons, we may block the use of your Card in
certain countries or geographic areas. We will have no
liability to you or others if any of these events occur.
You authorize us to honor any Purchase or Cash Advance
you make by telephone or mail on this account. You agree
that a signature is not necessary as identification in such
cases. We reserve the right to refuse to honor any request
for credit, to reduce your credit limit or terminate your
account at any time using our sole discretion, based on
changes in the economy, the Credit Union's financial
condition, your creditworthiness or for any other reason
not prohibited by law.
Transactions Involving Cryptocurrencies
Prohibited
Due to the many risks associated with
cryptocurrencies such as Bitcoin we have blocked all
transactions involving cryptocurrencies. This means
that you will not be able to perform any transactions
involving cryptocurrencies with any Card issued by
us.
SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

CCCOR

4. ATM ACCESS
If you have received a personal identification number
(PIN), you may use your Card and PIN to obtain Cash
Advances at any Automatic Teller Machine ("ATM") that
accepts your Card. Your PIN is confidential and should
not be disclosed to anyone. You agree not to write your
PIN on your Card, you will not keep your Card and PIN
together, and you will not provide your PIN to anyone who
is not an authorized user. Except as otherwise provided
in this agreement, advances through ATM access will be
treated as Cash Advances under this Agreement.
Advances at authorized ATM's are limited to a total of
$510.00 during any 24- hour period. The total of all cash
advances on your Visa Account and any withdrawals from
your other accounts through an ATM in any 24-hour
period may be combined for the purpose of this limitation.
Although we do not charge a fee for this service, others
may. Owners of ATMs that we do not own may charge
fees in addition to any fees disclosed in this
Agreement. This is not a fee charged by your Credit
Union; however, any such fee will be added to your
account. The party charging the fee is required to
provide appropriate disclosures to you with regard to
any such fees.
5. YOUR MAXIMUM CREDIT LIMIT
Your maximum credit limit will appear on the folder in
which you receive your Card and on your monthly
statement. At our discretion, we may change your credit
limit at any time, and may provide separate limits for
purchases and for cash advances. We will notify you if we
do, either by mail or through your monthly billing
statement. You may request a change to your credit limit
by contacting the Credit Union by telephone or mail. Your
continued use of the card will show your agreement to any
such increase. If you object to an increase in your credit
limit, you must notify Credit Union in writing. Upon receipt
of such notice, your credit limit will be reduced to its prior
limit; however, you will be responsible to pay any amounts
by which you have exceeded the reduced limit. You agree
to pay any amounts you owe that exceed your maximum
credit balance upon demand. You agree we are not
obligated to extend to you credit for any amount that
would cause your outstanding balance to exceed your
Maximum Credit Limit, or for any amount if your
outstanding balance already exceeds your Maximum
Credit Limit. Any increase in your Maximum Credit Limit
requested by you will require you to make a written
application for our approval. In assessing your credit limit
under the provisions in this Section (either at our
discretion or upon request): (a) we may and you authorize
us to review your credit history, including consumer credit
reports; (b) you authorize us to have this review made by
third parties to determine whether you meet the criteria
we have set for such an increase; and (c) this process
00029
Rev. 04.02.2020
Page 4 of 12

CCCOR

shall not be pre-screening under the Fair Credit Reporting
Act or other applicable laws or regulations based on our
existing relationship and this Agreement.

Please allow at least seven (7) days for the U.S. Postal
Service to deliver your payment.

Credit balances in excess of $1.00 will be refunded to you
by mailing a check to the address to which statements are
provided payable to the order of any cardholder or as a
deposit to your primary savings account. You agree that
the Maximum Credit Limit will at no time exceed the
agreed upon amount, and that any credit balance will not
be available or increase the Maximum Credit Limit
available for new purchases or cash advances during any
billing cycle.

To protect you and us, the Credit Union, in its sole
discretion, may place a temporary freeze on all or part
of the credit available to you for new purchases or
cash advances under this agreement any time the
Credit Union receives a large payment ($1,000.00 or
more), by a method other than cash, certified funds
or electronic transfer. In such cases, the Credit Union
may freeze your credit line until payment is actually
collected by us.

6. GENERAL TERMS GOVERNING YOUR PAYMENTS

Maximum Fees During the First Year: During the first
year after the credit card is opened the total fees charged
to your credit card will not exceed 25% of the credit limit
in effect when the account is opened. This limit does not
apply to late payment fees, over-limit fees or returned
payment fees or other fees the consumer is not required
to pay with respect to the account such as an expedited
payment for making a payment by phone. However, the
limit does apply to cash advance fees, balance transfer
fees and foreign transaction fees.

You will be jointly and severally liable and agree to pay
the Credit Union for all charges (purchases, cash
advances, finance charges, and other charges added to
your Account under the terms of this or any other
agreements with us) extended to you or anyone else
using any Card issued for your account, unless the use of
such Card is by a person other than you, who does not
have actual, implied or apparent authority for such use
and from which you receive no benefit. Authority includes,
but is not limited to, any authorized users permitting
another person to use any Card(s). Further, all users are
obligated to us for all charges they make, authorize or
permit. The Credit Union can accept late or partial
payments as well as payments that are marked with "paid
in full" or other restrictive endorsements, without losing
any of our rights under this Agreement. You must pay the
Credit Union in U.S. dollars drawn on funds on deposit in
the United States. The Credit Union will determine the
method of applying payments and credits to your account,
which will in all respect comply with any specific
requirements of applicable laws. If you make payment
with other currencies or from an institution domiciled
outside the United States, then your payment will not be
credited until the funds have been collected by us in U.S.
dollars. If you make a payment on this account utilizing a
check, you authorize us either to use the information from
your check to make a one-time electronic fund transfer
from your checking/deposit account or to process the
payment as a check transaction. When we use
information from a check to make an electronic funds
transfer, funds may be withdrawn from another financial
account possibly the same day you make your payment,
and you will not receive your check back from your
financial institution. For inquiries, or to opt out of one-time
electronic fund transfers, please contact us at
1.800.763.8600.
Unless otherwise required by specifically applicable laws,
for payments received by mail by 5:00 PM EST, you will
receive credit that day; and for payments made in any
other manner, including in person, your account will be
credited the day payment is received.
SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

7. MINIMUM PAYMENT DUE
You can pay off your account balance in full each month
or you can pay in monthly installments. If you do not pay
your balance in full, you agree to pay at least a minimum
payment of 2% of your New Balance (rounded to the
nearest whole dollar) or $25.00, whichever is greater at
the end of each statement period. If the New Balance
shown on your periodic statement is $25.00 or less, you
agree to pay this amount. Unless the Credit Union takes
other action as a result of a default under this Agreement,
the Minimum Payment Due will also include any amount
that is past due and any amount by which your new
balance exceeds your credit limit. Payment Allocation:
Subject to any mandatory provisions of applicable law we
will apply your minimum payment to previously billed
unpaid finance charges; late charges and similar charges;
balance with the lowest interest rate; Cash Advances and
Purchases. You must pay the minimum payment on or
before the due date each month, but you may pay more
with all of the excess payment being applied to highest
APR balances. You must pay at least the minimum
payment each month, but you may pay more than that
amount at any time without a penalty. The sooner you pay
your new balance, the less you will have to pay in finance
charges. The "Payment Due Date" will be shown on your
periodic statement.
Grace Period for Repayment of The Balance for
Purchases and Cash Advances: Grace period for
repayment of the balance for purchases and cash
advances is 25 days from the close of the billing cycle.
See your statement for billing cycle date.
00029
Rev. 04.02.2020
Page 5 of 12

CCCOR

8. RETURNS AND ADJUSTMENTS REGARDING
YOUR TRANSACTION WITH MERCHANTS
Merchants and others who honor your Card may give
credit for returns or adjustments, and they will do so by
sending the Credit Union a credit slip which will be posted
to your Account. If your credits and payments exceed
what you owe the Credit Union, the amount will be applied
against future purchases and cash advances. If the credit
balance amount is $1.00 or more, it will be refunded upon
your written request. Credit balances under $25.00 will
automatically be refunded within six months. Credit
balances over $25.00 will be refunded automatically each
month after statement cycle closing.
9. ADDITIONAL CHARGES FOR TRANSACTIONS IN
A FOREIGN CURRENCY AND CROSS-BORDER
TRANSACTIONS
Conversion Fee: If you effect or authorize a transaction
with your access device in a currency other than US
Dollars, Visa will convert the charge into a US Dollar
amount. The Visa currency conversion procedure
includes use of either a government mandated exchange
rate, or a wholesale exchange rate selected by Visa, as
applicable. The exchange rate Visa uses will be a rate in
effect on the day the transaction is processed. This rate
may differ from the rate in effect on the date of the
purchase or the date the transaction was posted to your
account. A Currency Conversion Fee of up to 1% will be
applied to transactions that are converted from foreign
currencies to U.S. dollars.
Cross-Border Transaction Fee: In addition, Visa
charges us a Cross-Border Assessment up to 1% on each
transaction on all cross-border transactions regardless of
whether there is a currency conversion. For purposes of
this Section, “cross-border transaction” shall include both
(a) transactions initiated in a foreign country which are
subsequently settled in the United States, and (b)
transactions initiated in the United States but which are
ultimately settled in a country outside of the United States.
The Credit Union will assess these fees to you to
reimburse it for the fee it is required to pay for each of your
transactions subject to these terms. The Cross-Border
transaction fee will be shown separately on your periodic
billing statement. The Currency Conversion Fee, if it
applies to the transaction, will be included in the
transaction amount posted on your statement.
10. FINANCE CHARGES
FINANCE CHARGES WILL BE IMPOSED IN THE
FOLLOWING MANNER AND WILL BE IN AMOUNTS
NOT IN EXCESS OF THOSE PERMITTED BY LAW:

SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

(a) Purchases: (1) No finance charge will be imposed
during the next billing cycle (defined as the time interval
between regular monthly billing statement dates) if you
pay the entire new balance shown on the current periodic
statement and we receive your payment on or before the
payment due date shown on the statement. (2) In all other
cases, a finance charge will be imposed based on the
average daily balance of all purchases and debit
adjustments, hereafter referred to as purchases. The
average daily balance is the sum of all outstanding
purchases, which is determined by including new
purchases and deducting payments or credits and
excluding any unpaid finance charge for your Account on
each day of the billing cycle divided by the number of days
in the billing cycle. A purchase appearing on the periodic
statement is considered a part of the outstanding balance
from the date of posting. (3) The amount of the finance
charge is calculated by multiplying the average daily
balance for purchases by the monthly periodic rate. The
monthly periodic rate is the yearly interest rate divided by
12.
(b) Cash Advances: (1) No finance charge will be
imposed during the next billing cycle (defined as the time
interval between regular monthly billing statement dates)
if you pay the entire new balance shown on the current
periodic statement and we receive your payment on or
before the payment due date shown on the statement (2)
In all other cases, a finance charge will be imposed on the
average daily balance of cash advances, which is the sum
of the cash advances (determined by including new cash
advances and deducting any payments or credits and
excluding any unpaid finance charge) outstanding each
day during the billing cycle, divided by the number of days
in the billing cycle. A cash advance appearing on the
periodic statement is considered a part of the outstanding
balance from the transaction date. (3) The amount of
finance charge is calculated by multiplying the average
daily balance for cash advances by the monthly periodic
rate. The monthly periodic rate is the yearly interest rate
divided by 12.
11. PROMOTIONAL RATE FINANCE CHARGES
From time to time and in our sole discretion we may offer
a special rate applicable to certain transactions such as
particular purchases (as defined by us), balance
transfers, cash advances or purchases made by using
Convenience Checks. Applicable terms and conditions
will be disclosed at the time any such promotion is offered,
and are incorporated into this Agreement by reference.
The promotional rate will apply only to the transactions
and for the period of time set forth in any such offer from
us. Existing balances and new purchases or advances not
expressly subject to any such promotion will remain
governed by the terms and conditions of this Agreement.
In addition, the terms and conditions of this Agreement
will govern your obligations regarding any unpaid balance
00029
Rev. 04.02.2020
Page 6 of 12

or transactions that are made subject to any such
promotional offer, that are not fully paid within the time
period set forth in such promotional offer.
12. INTEREST RATE ADJUSTMENT (DEFAULT RATE)
The Credit Union will adjust the interest rate on your
account whenever your account is 60 days past due. We
will change your interest rate to a fixed rate of 18.00%
annual percentage rate (APR) (or less in the Credit
Union’s discretion) which is a monthly periodic rate of
1.50%, on the first day of the billing cycle following the
cycle that was 60 days past due. After six (6) consecutive
billing cycles of your account being paid pursuant to the
terms of your agreements with the Credit Union, we will
change the interest rate to the rate that is then applicable
to your account, which will become effective on the first
day of the billing cycle following the sixth consecutive
billing cycle.
13. MONTHLY STATEMENT
We will send you a monthly billing statement whenever
there is activity on your account. Your monthly statement
will show an itemized list of current charges (Purchases
and Cash Advances) and Convenience Check
transactions to your account, your new balance, any
Finance Charges, the minimum payment due, and the
payment due date. In addition, it will show your current
credit limit, payments, and credits, a summary showing
your Purchases and Cash Advances, the merchant,
electronic terminal or financial institution at which
transactions were made, as well as other information
concerning your account. Sales, Cash Advance, credit or
other slips cannot be returned with any statement. You
will retain a copy of such slip furnished at the time of the
transaction in order to verify your monthly statement.
E-Statements: If provided electronically, you will be sent
a notice via e-mail that will direct you to a site we maintain
or cause to be maintained where you may access, review,
print and otherwise copy / download your periodic
statements using procedures that we authorize. E-mails
from us will be sent to the e-mail address provided by any
owner.
14. ADDITIONAL BENEFITS / CARD ENHANCEMENTS
The Credit Union may from time to time offer additional
services to your Account, such as travel accident
insurance, purchase rewards or rebates at no additional
cost to you. You understand that the Credit Union is not
obligated to continue or to offer such services and may
withdraw or change them at any time. If these benefits are
withdrawn prior to any accrued use by you, the Credit
Union will have no obligation to provide the benefit or
enhancement, or any other compensation or
consideration.
SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

CCCOR

15. MERCHANT DISPUTES
The Credit Union is not responsible for the refusal of my
merchant or financial institution to honor your Card except
as set forth in the Special Rules for Credit Card
Purchases set forth at the end of this Agreement.
16. LATE PAYMENT FEE
Credit Union will charge your account a late payment fee
up to $27.00 for the first billing period in which your
minimum payment is not received within three (3) days of
your payment due date. The credit union will charge you
a fee up to $38.00 for any additional late payments within
six (6) months of the first late fee. This fee may be added
to your account balance, or collected from you on
demand.
17. RETURNED PAYMENT OR INSUFFICIENT FUNDS
FEE
Credit Union will charge your account a $25.00 fee if your
payment by any method, including check, electronic
transfer, home banking transaction or otherwise, is not
honored, collected by us, or if we must return it to you
because it cannot be processed for any reason. This fee
may be added to your account balance, or collected from
you on demand.
18. CHARGE FOR COPIES, RESEARCH AND CARD
REPLACEMENT
If you ask for a copy of any document, such as a sales
slip, Convenience Check, or billing statement, a charge of
$10.00 per hour may be imposed for the time it takes to
research and locate the document, with a two-hour
minimum. In addition, a copying fee of $2.00 per copy will
be imposed. However, no charge will be imposed in
connection with any actual or asserted billing error. We
will charge a $15.00 fee to replace a lost card.
19. YOUR RESPONSIBILITY AND LIABILITY FOR
UNAUTHORIZED USE AND LOST OR STOLEN
CARDS OR CONVENIENCE CHECKS
If your Card or Convenience Checks are lost or stolen, or
if you are afraid someone used or may use them without
your permission, you must notify the Credit Union at once
by calling us at 1.800.449.7728. If notice is given orally,
you will promptly confirm it in writing. The Credit Union
may require you to provide us certain information in
writing to help us investigate any unauthorized use.
Further, you agree to cooperate and assist us or any
government or law enforcement agent or agency in
investigating, collecting or pursuing any other rights (civil
and criminal) relating to any unauthorized use. In this
regard, you agree to file an appropriate police report when
00029
Rev. 04.02.2020
Page 7 of 12

asked to do so. Do not use the Card or the Convenience
Checks after you have notified the Credit Union, even if
you find them or have them returned to you.
You are liable for all transactions that you authorize.
No Liability: You will have no liability for unauthorized
use of your Card, Convenience Checks or other Access
Devices for non-ATM transactions made over the Visa
Network. HOWEVER - your liability with respect to
unauthorized transactions may be greater than the
above zero ($0.00) liability limit, to the extent allowed
under applicable law, if the credit union reasonably
determines, based on substantial evidence, that you
were negligent or fraudulent in the handling of your
account or card.
Limited Liability: For transactions on other networks or
ATM transactions, you may be liable for unauthorized
transactions using your Card, Convenience Checks or
other Access Devices that occur before we are notified.
However, your liability for unauthorized use on networks
other than Visa will not exceed $50.00. In any case, you
will not be liable for any unauthorized use after notifying
us of the loss, theft or unauthorized use of your Card,
Convenience Checks or other Access Devices.
20. OUR LIABILITY FOR FAILURE TO COMPLETE
TRANSACTIONS
If we do not complete a transaction pursuant to any
request, and/or in the correct amount, we may be liable
for your losses or damages. However, there are some
exceptions. We will not be liable, for instance:
•
•

•
•
•
•
•
•
•

if through no fault of ours, you do not have
adequate funds available on your Card to
complete the transfer;
if circumstances beyond our control (such as fire,
flood, terrorist attack, national emergency, or
computer or communication failure) prevent the
completion of the transaction, despite reasonable
precautions we have taken;
if access to your Card has been blocked after you
reported your Card lost or stolen;
if there is a hold on your Card for any reason;
if your funds are subject to legal process or other
encumbrance restricting their use;
if your transfer authorization terminates by
operation of law;
if a computer system or mobile device was not
working properly and you knew about the
problem when you initiated the transaction;
if we have reason to believe that the requested
transaction is not authorized; or
as otherwise provided in this Agreement.

SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

CCCOR

21. WHAT THE CREDIT UNION MAY DO IF YOU DO
NOT MEET YOUR OBLIGATIONS UNDER THIS
AGREEMENT (DEFAULT)
You will be in default if: (a) you fail to pay the Minimum
Payment Due by the Payment Due Date; (b) the Credit
Union, in its sole discretion, feels insecure (For example:
Our good faith belief that your ability to pay your account
is impaired; use of your account in any manner or in any
way that may expose the Credit Union to a risk of loss;
etc.); (c) your ability to repay is materially reduced by a
change in your employment, by an increase in your
obligations, by bankruptcy or insolvency proceedings
involving you, by your death, or (for community property
state residents only) by a change in marital status or
domicile; (d) you exceed your credit limit without our
permission; (e) you have made a false or misleading
statement to us in your application or otherwise; (f) you
are in default under any other agreement with us; (g) if
you use or authorize the use of any Card(s) to make or
facilitate any illegal transaction; or (h) you fail to perform
any of your other obligations under the terms of this
Agreement as it may be amended from time to time. Upon
default we may close your Account to future purchases
and advances and, to the extent not prohibited by
Governing Law, demand immediate payment of your
entire Account balance, after giving you any notice and
opportunity to cure the default if required by applicable
law. The Credit Union's sole obligation hereunder with
regard to determining and declaring an event of default is
the exercise of "good faith," based on its subjective
understanding of applicable facts. We shall also have the
right to close your account and terminate access
privileges where your account is inactive for such periods
of time as we may from time-to-time determine to be
appropriate for protecting both our and your interests.
22. WHEN YOU MAY BE RESPONSIBLE FOR LEGAL
AND OTHER COSTS
You agree to pay all costs incurred by the Credit Union in
collecting any amounts you owe or in enforcing or
protecting the Credit Union's rights under this Agreement,
including attorneys' fees of 20% of the unpaid balance or
such greater sum as may be reasonable, and also those
costs, expenses and attorneys' fees incurred in any
appellate, bankruptcy and post-judgment proceedings,
except as limited or prohibited by applicable law.
23. UPDATING
INFORMATION

AND

DISCLOSING

FINANCIAL

We may report your performance under this Agreement
to credit reporting agencies and secure follow-up credit
reports on you for any legitimate business reason,
including if you fail to make your minimum payments on
time. We can reinvestigate and reevaluate any
information you provide on your Visa Application at any
00029
Rev. 04.02.2020
Page 8 of 12

time, and in the course of doing so, we may ask you to
provide additional information, request credit bureau
reports and/or otherwise verify your current credit
standing.

CCCOR

Access to Account Information: You agree that all
borrowers and authorized users will have access to
information regarding transactions on your account,
including but not limited to purchases and cash advances,
account balances, account history, payments and other
information relating to or arising with regard to this
account or any transaction.

the foregoing, the Credit Union has the right to terminate
your line of credit or any part of the services provided
pursuant to this Agreement and to demand the return of
all cards, access checks and other access devices if the
Credit Union, in its sole discretion, feels that it is insecure
for any reason whatsoever; including but not limited to
mismanagement of your account, failing to safeguard any
access device, creation of any credit balances by you that
may increase the risk of loss or exposure of the Credit
Union or failing to cooperate with the Credit Union or
others with regard to any claim of unauthorized use or any
other defense to payment under applicable law.

24. CHANGE OF NAME, ADDRESS OR EMPLOYMENT

27. CHANGING THIS AGREEMENT

You will notify immediately the Credit Union in writing if
your name, home address or employment changes.

The Credit Union may change the terms of this
Agreement, including the Annual Percentage Rate, at any
time. Except where limited by applicable law, the new
terms, including, but not limited to, increasing the finance
charge or the way the Credit Union calculates finance
charges, late charges, and the minimum payment due,
will apply both to new purchases and cash advances and
to the existing outstanding balance of your account as of
the day of the change. In accordance with applicable law,
the Credit Union will notify you of any increased charge or
change by writing to you at the most recent address
shown for you on the Credit Union's records.

25. CORRECTING THE CREDIT UNION’S CREDIT
REPORT
If you think the Credit Union reported erroneous
information about you to a credit reporting agency, call the
Credit Union at the telephone number listed on your
monthly billing statement. Credit Union will promptly
investigate the matter. Credit Union will contact each
credit reporting agency whose records may reflect an
error. Credit Union will require them to correct your report
if its investigation decides that you were correct. If Credit
Union disagrees with you after the investigation, Credit
Union will advise you, in writing or by phone, and instruct
you how to submit to those agencies a statement of your
position that will become a part of your credit record with
them. The instructions will include the name, address, and
phone number of each such agency, along with other
pertinent information.
26. WHEN YOUR ACCOUNT MAY BE CLOSED AND
EFFECTS OF ACCOUNT CLOSING
Any individual cardholder without the consent of other
cardholders may close your Account at any time by
notifying us in writing as indicated in this Agreement.
Credit Union may close your account or suspend your
Card privileges or Convenience Checks at any time
without prior notice. Credit Union may also reissue a
different Card or different checks at any time. You must
return the Card or the Convenience Checks to the Credit
Union upon request. You agree that the Card and all
Convenience Checks remain the property of Credit Union.
Each Card we issue will have an expiration date. Upon
expiration of your Card your account will automatically
terminate; or the Credit Union, in its sole discretion, may
extend your Agreement and issue a new card with a new
expiration date. If your account is closed, expires or your
credit privileges are terminated or suspended, you will
remain responsible for paying all amounts you owe us
according to the terms of this Agreement. Without limiting
SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

28. THE EFFECT OF ANY DELAY IN ENFORCEMENT
OR WAIVER
The Credit Union may delay or waive enforcement of any
of the provisions of this Agreement, including any
agreement to make timely payments, without losing its
right to enforce the same provision later or any other
provisions of this Agreement. You waive the right to
receive notice of any waiver or delay or presentment,
demand, protest or dishonor. You also waive any
applicable statute of limitations to the full extent permitted
by law and any right you may otherwise have to require
the Credit Union to proceed against any person before
suing you to collect. You understand that the Credit Union
will not be liable for a merchant's or other parties' refusal
to honor your Card whether due to an error by the Credit
Union, the merchant, the Credit Union's authorized agent,
or other third party.
29. ADDITIONAL TERMS OF AGREEMENT
To the extent not prohibited by applicable law, the terms,
interpretation and enforcement of any claim or dispute
arising under this Agreement, as well as all parties’ rights
and duties, will be governed by South Carolina State law
regardless where you may reside or use your account.
Further, this Agreement is the contract which governs all
transactions on your Account even though sales, cash
advances, credit or other slips may contain different
terms.
00029
Rev. 04.02.2020
Page 9 of 12

CCCOR

You may not transfer or assign your account or Card to
any other person. The Credit Union may assign or transfer
this Account, your Account balance, or this Agreement to
another person, who will have all of our rights hereunder.
This Agreement is binding on your heirs and legal
representatives. If there are joint obligors or authorized
users for this credit plan, each of you will have the right to
use the Account to obtain loans pursuant to the terms
hereof. Any one obligor’s elections, transactions and
directions to the Credit Union shall be binding upon all
obligors. Each of you will be liable for all obligations owing
on the Account whether borrowed by you or otherwise
and whether within or beyond the credit limit. Your liability
will be joint and several. Either party has the right to
cancel this Agreement. Further each of you is responsible
for all amounts borrowed by any authorized user(s).
Authorized users and other users may also be required to
repay the amount owed for charges they make; however,
you remain, at all times, primarily responsible for all
amounts owed. All Cards, billing statements and notices
will be mailed or delivered to the address given on the
application for either applicant unless you direct otherwise
in writing. If any law or judicial ruling makes any part,
provision, sentence or section of this Agreement
unenforceable, the remainder will continue in full force
and effect.
30. CREDIT INSURANCE
If you elect insurance, as set forth in your application, then
the charges will be added to your Account balance on
each billing cycle, if your insurance application is
approved. Credit insurance is voluntary and not required
to obtain a credit card account with us. You have a right
to terminate this insurance at any time by notifying us in
writing. Note: Maximum age for life insurance will
terminate in the month of your 70th birth date. Maximum
age for credit disability will terminate in the month of your
66th birth date.
31. ELECTRONIC PAYMENT OPTION
If you request recurring electronic payment options
(Automated Clearing House (ACH), Pay by Phone, echeck, etc.), all Minimum Payments due will automatically
be deducted from your designated account on your
Payment Due Date. If your designated account does not
contain sufficient funds, no automatic deduction will be
made; we will bill you for the Minimum Payment Due; and
your account will be charged a $25.00 insufficient funds
fee and you will be responsible for making the payment
by some other means.
32. COMPLIANCE WITH APPLICABLE LAWS AND
PROHIBITION OF ILLEGAL TRANSACTIONS

SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

You warrant and agree that you will at all times comply
with all Applicable Laws; and that your card and services
are at all times subject to Applicable Laws. Further, you
agree and warrant that your Credit Card, other access
device or any related account will not be used to make or
facilitate any illegal transaction(s) as determined by
applicable law; and that any such use, including any such
authorized use, will constitute an event of default under
this Agreement. Certain federal and/or state laws or Card
Service Providers’ Rules may limit or prohibit certain
transactions such as (but not limited to) those coded as
possible gambling transactions. The Credit Union may
decline to accept, process or pay any transaction that we
believe to be illegal or unenforceable (regarding your
obligation to pay us or otherwise) under applicable law; or
which is otherwise limited or prohibited, including but not
limited to any transaction involving or relating to any
gambling activity. Such prohibition or limitations may
affect some otherwise proper or allowable transactions
such as charges incurred at a hotel-casino. You
understand and agree such limitations/prohibitions are
not within the Credit Union’s control and that the Credit
Union will not have any liability, responsibility or culpability
whatsoever for any such use by you or any authorized
user(s); or for declining to accept, process, or pay any
such transaction. You further agree to indemnify and hold
the Credit Union harmless from any suits, liability,
damages or adverse action of any kind that results directly
or indirectly from any such use of your account and/or
access devices.
33. SKIP PAYMENT OPTION
At our option, we may offer you the opportunity to not
make ("skip") a minimum payment during certain
designated billing cycles ("skip payment period"). If you
do not make your minimum payments as provided in this
Agreement, during such designated billing cycles, you
understand that we will continue to apply finance charges
to your account. Beginning with the billing cycle following
an allowed skip payment period, all other provisions of
this Agreement will apply. We have no obligation to
accept your application for any skip payment period
offered, and you authorize us to investigate your
creditworthiness including obtaining consumer credit
reports. We may charge you an application processing
fee of up to $35.00 for each skip payment period that we
may offer to cover our costs of investigating your
qualifications for this extension including but not limited to
the
costs
associated
with
researching
your
creditworthiness.
34. VISA ACCOUNT UPDATER (VAU)
VAU is an account updating service in which your card is
automatically enrolled. When your card(s) expire, are lost
or stolen and new cards are issued, the service may
update relevant card data (card numbers and expiration
00029
Rev. 04.02.2020
Page 10 of 12

dates) to appropriate merchants who participate in an
effort to facilitate uninterrupted processing of your
recurring charges. This service provides updates to a Visa
database only. The database is accessed by those
qualified merchants seeking your account information
after you have requested they process a recurring
payment or payments. This service is provided as a free
benefit to you. If at any time you wish to opt-out of the
VAU service or if you have any questions, please call
1.800.763.8600 to do so.
OUR BILLING RIGHTS STATEMENT
KEEP THIS NOTICE FOR FUTURE USE
This Notice contains important information about your
rights and our responsibilities under the Fair Credit Billing
Act.
NOTIFY US IN CASE OF ERRORS OR QUESTIONS
ABOUT YOUR STATEMENT / BILLING AT:
SAFE Federal Credit Union
Post Office Box 31112
Tampa, FL 33631-3112
If you think your statement is wrong, or if you need more
information about a transaction on your statement, you
must write to us on a separate sheet of paper to the
address listed in your periodic statement. You should
write to us as soon as possible. We must hear from you
no later than 60 days after we sent you the first statement
on which the error or problem appeared. You can
telephone us, but doing so will not preserve your rights. In
your letter, you should give us the following information:
•
•
•
•

Your name and account number.
The dollar amount of the suspected error.
Describe the error and explain, if you can, why
you believe there is an error.
If you need more information, describe the item
you are not sure about.

If you have authorized us to pay your credit card bill
automatically from your SAFE Federal Credit Union
savings or checking account, you can stop payment on
any amount you think is wrong. To stop the payment, your
letter must reach us three (3) business days before the
automatic payment is scheduled to occur.
YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER
WE RECEIVE YOUR WRITTEN NOTICE:
We must acknowledge your letter within 30 days, unless
we have corrected the error by then. Within 90 days, we
must either correct the error or explain why we believe the
bill was correct.
SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

CCCOR

After we receive your letter, we cannot try to collect any
amount you question, or report you as delinquent. We can
continue to bill you for the amount you question, including
FINANCE CHARGES, and we can apply any unpaid
amount against your credit limit. You do not have to pay
any questioned amount while we are investigating, but
you are still obligated to pay the parts of the bill that are
not in question.
If we find that we made a mistake on your statement, you
will not have to pay the FINANCE CHARGES related to
any questioned amount. If we didn’t make a mistake, you
may have to pay FINANCES CHARGES, and you will
have to make up any missed payments on the questioned
amount. In either case, we will send you a statement of
the amount you owe us and the date that it is due.
If you fail to pay the amount we think you owe us, we may
report you as delinquent. However, if our explanation
does not satisfy you and you write us within 10 days telling
us that you still refuse to pay, we must tell anyone we
report you to that you have a question about your
statement. And, we must tell you the name of anyone we
reported you to. We must tell anyone we report you to that
the matter has been settled between you and us when it
finally is. If we don’t follow these rules, we can’t collect the
first $50.00 of the questioned amount, even if the
statement was correct.
SPECIAL RULE FOR CREDIT CARD PURCHASES:
If you have a problem with the quality of property or
services that you purchased with a credit card, and you
have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining
amount due on the property or services. There are two
limitations on this right:
1.
2.
3.

You must have made the purchases in your home
state or, if not within your home state, within 100
miles of your current mailing address; and
The purchase must have been more than $50.00.
These limitations do not apply if we own or
operate the merchant, or if we mailed you the
advertisement for the property or services.

If you feel that you need Counseling or Debt Management
services, please contact Consumer Credit Counseling
Service toll free at 1.800.251.2227 or visit them on the
web at www.cccsinc.org. You may also visit
www.frbatlanta.org for a list of Counseling and Debt
Management Services.
CONTACT INFORMATION
24 Hour Cardholder Service:
Call: 1.855.556.963
00029
Rev. 04.02.2020
Page 11 of 12

To Report a Lost or Stolen Visa Card After Hours
Call: 1.800.449.77278
Outside the US 727.299.2449 (Collect)

CCCOR

SAFE Federal Credit Union Visa Department:
PO Box 2008
Sumter, SC 29151-2008
803.469.8600
Toll Free 1.800.763.8600
Payment Address:
PO Box 71050
Charlotte, NC 28272-1050
To Close the Account:
(SEND WRITTEN NOTICE)
SAFE Federal Credit Union
P.O. Box 2008
Sumter, SC 29151-2008
Direct All Other Reports, Requests and Inquiries to:
PO Box 2008
Sumter, SC 29151-2008
803.469.8600
1.800.763.8600

SAFE Federal Credit Union
P.O. Box 2008, Sumter SC 29151-2008
1.800.763.8600
803.469.8600

00029
Rev. 04.02.2020
Page 12 of 12

